No. 19-1336
IN THE

THE NATIONAL RETIREMENT FUND, ET AL.,
Petitioners,
v.
METZ CULINARY MANAGEMENT, INC.,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
BRIEF FOR AMICUS CURIAE
HORIZON ACTUARIAL SERVICES, LLC

Sarah E. Harrington
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
INTEREST OF AMICUS CURIAE ............................. 1
SUMMARY OF ARGUMENT ..................................... 2
ARGUMENT ................................................................ 3
I.

The Decision Below Misunderstands And
Distorts Settled Actuarial Practices And
Professional Standards. ........................................ 4

II. This Court’s Immediate Intervention Is
Warranted Even In The Absence Of A Direct
Circuit Conflict. ................................................... 14
CONCLUSION........................................................... 17

ii
TABLE OF AUTHORITIES
Cases
Chi. Truck Drivers, Helpers and Warehouse
Workers Union (Indep.) Pension Fund v. CPC
Logistics, Inc.,
698 F.3d 346 (7th Cir. 2012) ............................ 12, 13
Concrete Pipe and Prods. of Cal., Inc. v. Constr.
Laborers Pension Trust for S. Cal.,
508 U.S. 602 (1993) ................................................ 13
Statutes
26 U.S.C. § 412............................................................. 6
26 U.S.C. § 431......................................................... 6, 7
26 U.S.C. § 7701......................................................... 13
29 U.S.C. § 1001........................................................... 2
29 U.S.C. § 1084........................................................... 7
29 U.S.C. § 1241......................................................... 13
29 U.S.C. § 1242......................................................... 13
29 U.S.C. § 1391........................................................... 5
29 U.S.C. § 1393................................................. passim
29 U.S.C. § 1394............................................... 9, 10, 12
29 U.S.C. § 1401................................................... 13, 16
Other Authorities
Actuarial Standards Board, Actuarial Standard
of Practice No. 27: Selection of Economic Assumptions for Measuring Pension Obligations,
(Sept. 2007)........................................................... 6, 7

iii
Actuarial Standards Board, Actuarial Standard
of Practice No. 27: Selection of Economic Assumptions for Measuring Pension Obligations,
(Sept. 2013)............................................................... 9
Cong. Research Serv., Data on Multiemployer
Defined Benefit (DB) Pension Plans (2020) ........... 14
Kelly Coffing et al., COVID-19 to Leave Multiemployer Pension System More Distressed
than Ever, Multiemployer Review (Milliman),
Apr. 12, 2020 .......................................................... 15
PBGC, FY 2018 Projections Report ........................... 14

INTEREST OF AMICUS CURIAE 1
Amicus Horizon Actuarial Services, LLC is a leading consulting firm that specializes in providing innovative actuarial solutions to multiemployer benefit
plans. Horizon proudly serves more than 120 pension
and health and welfare plans in various industries, including construction, trucking, professional sports,
hospitality, entertainment, retail food, and communication.
As a leading actuarial firm, Horizon has an interest in the Second Circuit’s erroneous holding, which
misunderstands actuarial principles and misconstrues
the relationship between an actuary and a client plan.
The decision below also imposes constraints on actuaries that are inconsistent with standard and appropriate actuarial practices and imperil the health of
multiemployer defined-benefit pension plans. Horizon
also has an interest in this particular case. In late
2013, shortly before the events giving rise to this dispute, petitioner National Retirement Fund chose Horizon to be the actuary for NRF’s multiemployer pension
plan. Pet. App. 5a. Horizon was the actuary for the
plan when respondent Metz Culinary Management,
Inc. withdrew from the pension plan.

In accordance with Supreme Court Rule 37.6, amicus curiae
certifies that no counsel for a party authored this brief in whole
or in part, and that no party or counsel other than the amicus
curiae and its counsel made a monetary contribution intended to
fund the preparation or submission of this brief. Counsel for
petitioners and for respondent have indicated their consent to the
filing of this brief.
1

2
Horizon submits this brief to explain why this
Court’s immediate intervention is warranted to correct the Second Circuit’s erroneous decision. If left
standing, the court of appeals’ decision will place actuaries for multiemployer defined-benefit pension plans
in an untenable position by preventing them from using their best judgment in performing withdrawal-liability calculations, even though that is what the Employee Retirement Income Security Act of 1974
(ERISA), 29 U.S.C. § 1001 et seq., requires. The decision below also threatens to further imperil the health
of multiemployer pension plans, which have long been
at risk of leaving millions of Americans without their
promised retirement benefits—and are at even greater
risk in the current economic climate.
SUMMARY OF ARGUMENT
This Court’s immediate intervention is warranted
to correct the Second Circuit’s erroneous decision. Although this Court rarely grants a writ of certiorari in
the absence of a circuit conflict, an exception to that
usual practice is appropriate here because of the potential for widespread economic harm to multiemployer defined-benefit pension plans and their hardworking beneficiaries.
The Second Circuit’s decision is based on a misunderstanding of actuarial practices, of the distinct obligations assigned by Congress to actuaries and to plan
sponsors, and of the statutory obligations that govern
an actuary’s determination of actuarial assumptions.
If allowed to stand, the Second Circuit’s decision will
continue to place actuaries in the impossible position
of simultaneously (1) being required by statute to use
their best judgment in setting reasonable assumptions

3
that reflect actual and reasonably anticipated plan experience and (2) being prohibited from doing exactly
that by the decision below.
With the current economic and health-related crises gripping our Nation, the already distressed universe of multiemployer defined-benefit pension plans
is at risk of sliding even more quickly towards insolvency. Even the federal agency designated as the
backstop in the event of plan insolvency has declared
that its own multiemployer-plan insurance fund will
be insolvent in five years. The decision below, if left to
stand, will only exacerbate those problems at the expense of hard-working Americans. This Court’s immediate intervention is warranted.
ARGUMENT
Although the Second Circuit’s decision in this case
does not directly conflict with any decision of another
court of appeals, this Court’s immediate intervention
is warranted because the decision below is likely to
cause serious damage to the already distressed system
of multiemployer defined-benefit pension plans. The
Second Circuit’s decision is based on fundamental misunderstandings about the actuarial practices at issue
in this case. As a result, the decision below places actuaries in an impossible position, requiring them to
use actuarial assumptions that are unreasonable and
that do not reflect their best estimate of a plan’s expected future experience—in direct contravention of
what ERISA requires. Because the universe of multiemployer defined-benefit pension plans is already in
serious danger of leaving millions of American workers without the benefits they have toiled so hard to
earn, this Court should intervene immediately rather

4
than waiting for a circuit conflict to arise. The current
global financial recession threatens to accelerate the
pace of the damage the decision below is likely to
cause.
I.

The Decision Below Misunderstands And
Distorts Settled Actuarial Practices And
Professional Standards.

The decision below warrants this Court’s immediate review because it seriously distorts settled actuarial practices and places independent actuaries in an
impossible position.
A. This case involves a multiemployer definedbenefit pension plan that is underfunded. When a participating employer withdraws from an underfunded
multiemployer pension plan, ERISA requires the withdrawing employer to contribute its share of the unfunded vested benefits. Pet. App. 3a. The withdrawing employer must pay its share of expected benefit
payments from the plan that will not be covered by existing assets. Id. 3a-5a. Calculating a withdrawing
employer’s share of unfunded vested benefits requires
making predictions about the future growth of the
plan and about future demands for benefits. Id. at 4a.
In this case, that role fell to amicus Horizon Actuarial
Services, the independent actuary hired by petitioners. Id. at 5a-6a.
An actuary’s calculation of a withdrawing employer’s withdrawal liability is governed by ERISA,
which requires an actuary to use actuarial assumptions that, “in the aggregate, are reasonable” based on
“the experience of the plan and reasonable expectations.” 29 U.S.C. § 1393(a)(1). The same provision re-

5
quires actuaries to set actuarial assumptions that “offer the actuary’s best estimate of anticipated experience under the plan.” Ibid. The Second Circuit’s erroneous decision now prevents actuaries from adhering
to their professional and statutory duties to use actuarial assumptions that reflect their best judgment
about what to expect in the future and that reflect the
actual experience of the plan in question.
ERISA requires that a withdrawing employer’s
withdrawal liability be calculated “as of” the last day
of the year directly preceding the year of the withdrawal (here, December 31, 2013).
29 U.S.C.
§1391(b)(2)(E)(i). But it is generally impossible for an
actuary to make a determination about the applicable
interest-rate assumption (or other assumptions) on
December 31 of the relevant year because the actuary
lacks the necessary information to make that determination in advance. Interest-rate assumptions depend
on an array of data that are generally not available
instantaneously—and certainly cannot be effectively
analyzed instantaneously. Those data include the allocation of plan assets, historical investment data, current yields on fixed income securities, forecasts of inflation and returns for various asset class, and trends
in employer participation in the plan. Sometimes an
actuary is made aware of an event that is relevant to
selecting an assumption only after the fact. In those
circumstances, the actuary must be allowed to take
such events into account in selecting the assumptions
that best reflect the facts on the ground. Because
ERISA requires an actuary to consider the actual “experience of the plan,” 29 U.S.C. § 1393(a)(1), in setting
assumptions, an actuary needs to evaluate the as-

6
sumptions in light of recent plan experience before setting those assumptions. That is particularly true
where, as here, a plan hires a new actuary. ERISA
recognizes that a range of different assumptions can
be equally reasonable. When a plan hires a new actuary, the actuary must assess the reasonableness of its
predecessor’s assumptions—and adopt new assumptions when the old ones are not the most reasonable in
the new actuary’s opinion.
As facts on the ground change from year to year,
actuaries must be allowed to fulfill their statutory obligation to exercise their best judgment in light of the
plan’s experience when setting actuarial assumptions.
Indeed, the applicable standards governing actuarial
practice required actuaries like amicus to adopt assumptions that take into account “appropriate recent
and long-term historical economic data.” Actuarial
Standards Board, Actuarial Standard of Practice No.
27: Selection of Economic Assumptions for Measuring
Pension Obligations, ¶ 3.3.d (Sept. 2007). But that is
no longer possible for plans governed by the Second
Circuit’s decision, which effectively locks plans into old
interest-rate assumptions that necessarily do not reflect recent trends, plan experience, and current economic conditions. That is not what Congress intended
and it is not in the interest of multiemployer plans,
participating employers, or employee beneficiaries.
Relatedly, ERISA also subjects multiemployer
plans to minimum-funding standards. 26 U.S.C.
§§ 412, 431. To implement those standards, an actuary determines the minimum funding for a “plan year”
(here, a calendar year) by determining the present
value of future liabilities for benefits and of the costs
of administering the plan. In calculating minimum-

7
funding requirements, an actuary must use an array
of reasonable assumptions, see 26 U.S.C. § 431(c)(3);
29 U.S.C. § 1084(c)(3), that are similar to those used
to calculate withdrawal liability. Such assumptions
may include turnover assumptions that reflect how
many employees will vest in their benefits, retirement
age and mortality assumptions that reflect how long
beneficiaries will receive benefits, and interest-rate
assumptions that the actuary uses to discount future
plan liabilities to the present dollar equivalent. In the
decision below, the Second Circuit suggested that an
actuary’s choice of different interest-rate assumptions
for plan-funding purposes and for withdrawal-liability
purposes could reflect bias and manipulation. Pet.
App. 13a-14a. That suggestion reflects a further lack
of understanding about actuarial practices—and
threatens to undermine actuaries’ ability to choose assumptions that reflect their best independent judgment.
The court of appeals failed to appreciate that the
purpose of a withdrawal-liability calculation is fundamentally different from the purpose of a minimumfunding calculation. Standards governing the adoption of the actuarial assumptions at issue here required that, in choosing such an assumption, the actuary must consider, inter alia, “the purpose and nature
of the measurement” for which the assumption will be
used. Actuarial Standards Board, Actuarial Standard
of Practice No. 27: Selection of Economic Assumptions
for Measuring Pension Obligations, ¶¶ 3.3.a, 3.6.3
(Sept. 2007). The purpose of a withdrawal-liability
calculation is to calculate the value of the unfunded
vested benefits that will be allocated to a withdrawing
employer. When an employer withdraws from a plan,

8
it effectively settles its obligations to the plan—and
then pays off that fixed settlement amount over a
number of years. In contrast, the purpose of a minimum-funding obligation is to determine the budgeting
contribution a participating employer must make to
cover the fund’s obligations and operating expenses.
One critical difference between the minimumfunding calculations and withdrawal-liability calculations is the ongoing relationship (or lack thereof) between the relevant employer and the plan. When an
actuary makes an interest-rate assumption for purposes of determining the minimum-funding requirement, the actuary knows that all of the participating
employers share the risks associated with market and
demographic changes going forward. That means that
each employer that stays in the plan will be subject to
any future increases in minimum-funding requirements should interest-rate assumptions for funding
purposes change for the worse. In contrast, when an
employer withdraws from a multiemployer plan, that
employer’s obligation to the plan is fixed and its relationship with the plan is severed except to the extent
it pays off its fixed obligation over time. The withdrawing employer’s risk is eliminated with respect to
that employer and is instead shifted to the employers
that remain in the plan. Because the two calculations
serve different purposes and must take into account
different future risk portfolios, it is appropriate in
some circumstances for actuaries to use different interest-rate assumptions for the two calculations. That
is particularly true when the experience of the plan
suggests that a withdrawing employer is unlikely to be
replaced by a new employer. In that circumstance, the

9
risk left behind by the withdrawing employer must be
borne entirely by the employers remaining in the plan.
As noted, when an employer withdraws from a
multiemployer plan, its liability to the plan is forever
fixed and that employer is obligated to make periodic
payments on that liability over time. Any amount of
that obligation that remains after 20 years can be reallocated to the employers that remain in the plan.
The actuary’s valuation of the withdrawing employer’s
obligation is the economic equivalent of a settlement
valuation, akin to a fixed-rate annuity. In this case,
the actuary opted to use an interest-rate assumption
established by the federal Pension Benefit Guaranty
Corporation (PBGC) that is similar to the type of interest rate that insurance companies use to price an
annuity. That choice was reasonable in light of the
experience of the plan and it reflected the actuary’s
best judgment about the current cost of settling a fixed
obligation.2
B. The Second Circuit also fundamentally misunderstood the different roles and obligations of actuaries on one hand and plan sponsors on the other
hand.
First, the court of appeals relied heavily on the requirements of Section 4214 of ERISA, 29 U.S.C.

The current version of Actuarial Standard of Practice 27 instructs that an actuary should take into account the purpose for
which a discount (interest) rate is selected, specifically noting
that one such purpose is for “defeasance” or “settlement” measurements and another such purpose is “[c]ontribution [b]udgeting.” Actuarial Standards Board, Actuarial Standard of Practice
No. 27: Selection of Economic Assumptions for Measuring
Pension Obligations, ¶ 3.9.a (Sept. 2013).
2

10
§ 1394, without examining on whom those obligations
fall. See Pet. App. 10a-12a. Section 4214(a) prohibits
the retroactive application of a new “plan rule or
amendment” “with respect to liability for a withdrawal
or partial withdrawal.” 29 U.S.C. § 1394(a). And Section 4214(b) requires a “plan sponsor” to “give notice
to all employers who have an obligation to contribute
under the plan . . . of any plan rules or amendments
adopted pursuant to” Section 4214. Id. § 1394(b). The
court of appeals concluded that the twin prohibition
and obligation in Section 4214 prohibit an actuary
from setting an interest-rate assumption for purposes
of withdrawal liability after December 31 of the previous year. That was incorrect.
The prohibition and obligation in Section 4214 apply to plan sponsors, not to actuaries. That much is
apparent on the face of the provision, which refers only
to a “plan sponsor,” not to an actuary (unlike Section
4213, 29 U.S.C. § 1393). Section 4214 expressly applies only to new “plan rule[s] or amendment[s],” 29
U.S.C. § 1394(a)—which do not include the type of actuarial assumptions at issue here. New plan rules or
amendments are adopted by plan sponsors, not by actuaries. A new rule or amendment may affect an employer’s potential withdrawal liability by altering one
or more methods used in determining that liability.
Permissible methods for calculating withdrawal liability are generally defined by statute or regulation, are
selected by the plan sponsor, and are memorialized in
a legal document. When a plan sponsor adopts such a
new method, the change is subject to Section 4214’s
notice requirement and prohibition on retroactivity.
But a plan sponsor’s change to a method of calculating
withdrawal liability is distinct from an actuary’s

11
change to an assumption used to implement such a
method.
In contrast to methods, which are adopted by plan
sponsors, assumptions are adopted by actuaries. Assumptions are basically educated guesses about uncertain future events that are used to determine expected
future cash flows from a plan and to determine the
present value of those cash flows. In this context, actuaries use assumptions about a variety of unknowns,
including interest rates that reflect expected growth of
the plan’s assets, termination rates that reflect expected employee turnover, disability and retirement
rates that reflect expected payout of those benefits,
and mortality rates that reflect both expected employee attrition from the plan and expected payout of
certain death benefits where appropriate. The rules
governing the use of those actuarial assumptions in
determining withdrawal liability are set out in Section
4213 of ERISA, 29 U.S.C. § 1393, and in accompanying
regulations promulgated by the PBGC. None of the
rules set out in those statutory or regulatory provisions prohibit an actuary from changing actuarial assumptions, effective on an earlier date, based on analysis of real-world data that were not reflected in those
earlier assumptions.
Section 4213 of ERISA requires actuaries to use
assumptions “which, in the aggregate, are reasonable”
based in part on “the experience of the plan”—and
that, “in combination, offer the actuary’s best estimate
of anticipated experience under the plan.” 29 U.S.C. §
1393(a)(1). The statutory command that an actuarial
assumption reflect both the experience of the plan and
the actuary’s best estimate of anticipated experience
going forward means that an actuarial assumption

12
must reflect the facts on the ground. In practice, this
means that they must be adjusted retrospectively to
the measurement date after the relevant facts have
been gathered and assessed. That is in part why Section 4213 does not include a prohibition on retroactive
and unannounced changes to assumptions while Section 4214 does prohibit such changes with respect to
plan provisions, including methods.
The court of appeals failed to appreciate the distinct roles that actuaries and plan sponsors play—and
the distinct obligations that each entity bears under
ERISA. Congress understood those differences when
it enacted ERISA, imposing the obligations of Section
4214 on plan sponsors (who adopt new plan rules or
amendments) and imposing the distinct obligations of
Section 4213 on actuaries (who adopt actuarial assumptions). By reflexively imposing obligations applicable to plan sponsors onto the distinct actions of actuaries, the Second Circuit undermined ERISA’s carefully reticulated scheme to protect multiemployer
plans.
Second, the court of appeals ignored the institutional independence of an actuary from a plan sponsor
when it suggested that an actuary’s use of different assumptions for withdrawal-calculation purposes and
for minimum-funding purposes could be a sign that
the actuary is caving to manipulative pressure and biases of a plan sponsor. See Pet. App. 13a-14a.
As explained, plan sponsors do not select actuarial
assumptions; actuaries select actuarial assumptions.
“ERISA requires that the computation of withdrawal
liability be based on ‘the actuary’s best estimate of anticipated experience,’” not the plan sponsor’s. Chi.
Truck Drivers, Helpers and Warehouse Workers Union

13
(Indep.) Pension Fund v. CPC Logistics, Inc., 698 F.3d
346, 355 (7th Cir. 2012). And an actuary’s choice of
assumptions is constrained not only by statutory and
regulatory requirements, but also by a code of professional standards promulgated by the Actuarial Standards Board and by a code of professional conduct promulgated by the American Academy of Actuaries. This
Court has explained that, “[a]lthough plan sponsors
employ them, actuaries are trained professionals subject to regulatory standards.” Concrete Pipe and
Prods. of Cal., Inc. v. Constr. Laborers Pension Trust
for S. Cal., 508 U.S. 602, 632 (1993) (citing 29 U.S.C.
§§ 1241, 1242; 26 U.S.C. § 7701(a)(35)). As such, actuaries are “not, like the trustees, vulnerable to suggestions of bias or its appearance.” Ibid. “The actuary is
a professional, assumed to be neutral and disinterested; a plan’s trustees, in contrast, may, whether for
short-term reasons, pressures from employers or unions, or lack of relevant expertise, want unreasonably
high or unreasonably low interest-rate assumptions.”
Chi. Truck Drivers, 698 F.3d at 355.
To put it in practical terms, an actuary who yields
to pressure from plan sponsors to adopt an assumption
that is unreasonable and does not reflect the actuary’s
best estimates cannot expect to work as an actuary for
much longer. The very purpose of hiring an actuary is
to obtain an independent and unbiased assessment of
the range of likely outcomes of unknowable future
events. That is why Congress created a presumption
that actuarial assumptions are correct by requiring an
employer to bear the burden of establishing that any
such assumption is unreasonable.
29 U.S.C.
§ 1401(a)(3)(B). Particularly because sound actuarial
practices support the assumptions adopted in this case

14
and all professional guidance was strictly followed, the
court of appeals erred in suggesting that the assumptions reflected potential bias by the actuary.
II. This Court’s Immediate Intervention Is Warranted Even In The Absence Of A Direct Circuit Conflict.
As explained, the Second Circuit’s erroneous decision is based on a lack of understanding about actuarial principles, practices, and obligations. Although no
other courts of appeals have directly confronted the
question decided below, this Court’s immediate intervention is warranted because the practical consequences of the Second Circuit’s decision could be catastrophic for multiemployer pension plans.
Multiemployer defined-benefit pension plans are
already in serious trouble. The most recent projections of the PBGC indicate that a large number of multiemployer plans are in critical and declining status
and expect to be insolvent in the next 20 years. PBGC,
FY 2018 Projections Report, at 13; accord, Cong. Research Serv., Data on Multiemployer Defined Benefit
(DB) Pension Plans, at 1 (2020).4 Although PBGC administers an insurance program that can make up for
benefit lapses (up to a statutory cap) due to plan insolvency, the PBGC has projected that its multiemployer
plan insurance program, too, will be insolvent by FY
2025 if multiemployer plans continue on this road.
PBGC, FY 2018 Projections Report at 1-2.

https://www.pbgc.gov/sites/default/files/fy-2018-projectionsreport.pdf.
3

4

https://fas.org/sgp/crs/misc/R45187.pdf.

15
With the future solvency of many large multiemployer plans already at risk, the Second Circuit’s decision threatens to make matters worse by preventing
independent actuaries from using their best judgment
and the most relevant data to determine withdrawal
liability of departing employers. Although the Second
Circuit inappropriately speculated about gamesmanship by the actuary in this case, it is the Second Circuit’s decision that could encourage gamesmanship by
employers in distressed multiemployer plans who seek
a quick exit before assumptions can be updated to reflect recent circumstances.
With the current economic crisis and recession facing this Nation, the situation is likely to get worse
quickly. One actuarial firm recently projected that the
COVID-19 pandemic will push more multiemployer
plans into critical or declining status. Kelly Coffing et
al., COVID-19 to Leave Multiemployer Pension System
More Distressed than Ever, Multiemployer Review
(Milliman), Apr. 12, 2020.5 The combination of market
down-turn and economic distress experienced by a
number of industries that participate in multiemployer defined-benefit plans is toxic for those plans. As
more employers are forced to close their doors—and
therefore withdraw from multiemployer plans—and
as the demographic data on active and retired employees changes to reflect the health- and economic-related
consequences of the pandemic, actuaries must be allowed to use their best judgment to account for the
complex array of factors that affect projections about a
plan’s future liabilities. The Second Circuit’s decision
https://milliman-cdn.azureedge.net/-/media/milliman/pdfs/
articles/multiemployer_review_april_2020.ashx.
5

16
stands in the way of that commonsense (not to mention congressionally mandated) approach.
To be sure, this Court’s ordinary practice is not to
step in to correct an erroneous court of appeals decision that is the first to directly address a legal question. The Court should make an exception to that
practice in this case—because the potential economic
harm that could flow from the Second Circuit’s decision while the issue percolates among other courts of
appeals could be devastating to retirees and their dependents at a moment of maximum vulnerability for
many American workers.
This Court’s review is warranted now because it is
unlikely that other cases raising this question will result in a final decision in a court of appeals any time
soon. ERISA requires that disputes over withdrawalliability calculations be settled through arbitration, 29
U.S.C. § 1401, and cases often settle even after a party
seeks judicial review of an arbitral award. The immediate adverse consequences of the Second Circuit’s decision counsel against waiting for a circuit split to develop before this Court steps in to correct the decision
below.

17
CONCLUSION
For the foregoing reasons, the Petition for a Writ
of Certiorari should be granted and the decision below
reversed.
Respectfully submitted,
Sarah E. Harrington
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

June 12, 2020

